<html>
<title> - NOMINATIONS OF RICHARD L. SKINNER AND BRIAN D. MILLER</title>
<body><pre>[Senate Hearing 109-199]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-199
 
         NOMINATIONS OF RICHARD L. SKINNER AND BRIAN D. MILLER

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                 ON THE

   NOMINATIONS OF RICHARD L. SKINNER TO BE INSPECTOR GENERAL OF THE 
    DEPARTMENT OF HOMELAND SECURITY, AND BRIAN D. MILLER TO BE THE 
        INSPECTOR GENERAL OF THE GENERAL SERVICES ADMINISTRATION


                               __________

                             JULY 18, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
23-161                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
            Jennifer A. Hemingway, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
         Adam R. Sedgewick, Minority Professional Staff Member
                      Trina D. Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Akaka................................................     3
    Senator Warner...............................................     3

                               WITNESSES
                         Monday, July 18, 2005

Hon. George Allen, a U.S. Senator from the State of Virginia.....     5
Richard L. Skinner to be Inspector General, U.S. Department of 
  Homeland Security..............................................     7
Brian D. Miller to be Inspector General, General Services 
  Administration.................................................     9

                     Alphabetical List of Witnesses

Allen, Hon. George:
    Testimony....................................................     5
Miller, Brian D.:
    Testimony....................................................     9
    Prepared statement...........................................    71
    Biographical and professional information....................    73
    Responses to pre-hearing questions...........................    78
    Responses to post-hearing questions..........................    97
Skinner, Richard L:
    Testimony....................................................     7
    Prepared statement...........................................    17
    Biographical and professional information....................    21
    Responses to pre-hearing questions...........................    25
    Responses to post-hearing questions..........................    63


         NOMINATIONS OF RICHARD L. SKINNER AND BRIAN D. MILLER

                              ----------                              


                         MONDAY, JULY 18, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2 p.m., in room 
562, Dirksen Senate Office Building, Hon. Susan M. Collins, 
Chairman of the Committee, presiding.
    Present: Senators Collins, Warner, and Akaka.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Good afternoon. Today, the Committee will consider the 
nominations of Richard Skinner to be Inspector General of the 
Department of Homeland Security and Brian Miller to be 
Inspector General of the General Services Administration.
    Congress enacted the Inspector General Act of 1978 in 
response to growing concerns that Federal agencies did not have 
sufficient internal protections against waste, fraud, and 
abuse. The Act has been amended several times to add new IGs 
and to clarify reporting requirements, but its basic tenets 
have remained constant: To provide independent voices in 
promoting the ``economy, efficiency, and effectiveness'' of 
programs and operations. Billions of dollars have been 
recovered or saved based upon IG recommendations, and thousands 
of prosecutions have resulted from those investigations.
    In recent years, the responsibilities of IGs have expanded 
in response to new challenges. IGs today play increasingly 
vital role within their agencies by conducting financial 
audits, reporting on Results Act compliance and accountability, 
and assessing information security efforts.
    Nowhere is the role of the Inspector General more important 
than at the Department of Homeland Security. This relatively 
new and extraordinarily large Department poses management and 
other challenges that demand oversight like few others. The 
execution of the DHS mission is crucial to our Nation, and 
effective, ongoing internal oversight is essential.
    As the Department begins to adopt the restructuring 
proposed in Secretary Chertoff's just-completed Second Stage 
Review, this oversight will be even more important.
    Our nominees' willingness to work closely with the 
Committee will be critical to our continued oversight of both 
Departments.
    Richard Skinner became the first Deputy Inspector General 
at the Department of Homeland Security on March 1, 2003, the 
date that office was established. He assumed the role of Acting 
Inspector General on December 8, 2004.
    Prior to joining DHS, Mr. Skinner was with the Federal 
Emergency Management Agency (FEMA), where he served as both 
Deputy and Acting Inspector General. And prior to that, he 
served in the Office of Inspector General at the Departments of 
State, Commerce, Justice, and Agriculture.
    In all, he has dedicated more than 36 years to good 
government as a member of the audit and Inspector General 
community.
    Mr. Skinner is no stranger to this Committee. He has 
provided valuable testimony at two hearings so far this year--
in January on DHS management challenges, and in May, on FEMA's 
disaster relief efforts last year in Florida. So we welcome you 
back, Mr. Skinner.
    Another Federal agency at which effective, ongoing internal 
oversight is paramount is the General Services Administration. 
As the provider of office space, equipment, supplies, 
telecommunications, and information technology throughout the 
Federal Government, GSA is the gateway for nearly $66 billion 
in Federal spending. The agency also has a central role in the 
management of some $500 billion in Federal assets, including 
more than 8,300 government-owned or leased buildings, a fleet 
of more than 170,000 vehicles, and computer systems worth 
hundreds of millions of dollars.
    With the financial stakes so high, it is imperative that 
GSA provide taxpayers with the best possible return on 
investment in terms of value, efficiency, and integrity. As 
this Committee knows all too well, this has not always been the 
case. From our investigations of Federal real estate, purchase 
cards, and agency vehicle fleets, we have seen that GSA has not 
kept sufficient track of these valuable taxpayer-owned assets.
    GSA faces significant challenges. From his responses to our 
pre-hearing questions, it appears that this Inspector General 
nominee, Mr. Miller, knows full well how serious these 
challenges are. He recognizes that much of what GSA does has a 
tremendous impact across every agency of government, and thus a 
great impact upon the American people. He has stated his 
commitment to strengthening GSA performance by conducting 
independent and objective audits and investigations, and by 
seeking legislative and regulatory remedies when needed.
    Mr. Miller currently is Cousnel to the U.S. Attorney for 
the Eastern District of Virginia. Prior to that, he served as 
Senior Counsel to the Deputy Attorney General, an Assistant 
U.S. Attorney, and a Senior Attorney-Advisor at the Department 
of Justice. During that time, he has supervised audits and 
investigations of procurement, grant, and healthcare fraud. He 
has worked with Inspector Generals in prosecuting criminal and 
civil cases, and, in fact, has provided training to the 
Inspector General community on conducting effective 
investigations.
    Mr. Miller has a very impressive background, he has the two 
distinguished Senators from the Commonwealth of Virginia here 
to comment on his background, I am going to allow those who 
know him better than I to speak to his qualifications.
    I welcome Mr. Miller to the Committee. I know we will be 
working closely with both of our nominees today. I look forward 
to the testimony of both of these nominees.
    I would now like to call upon Senator Akaka for his opening 
comments.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you, Madam Chairman. Senator Allen, 
good to have you with us. Mr. Skinner and Mr. Miller, I welcome 
you to this Committee, and I welcome your families, who are 
seated back of you, to this Committee. I want to congratulate 
each of you on your nominations.
    In 2003, we celebrated the 25th anniversary of the 
Inspector General Act. Through amendments to the Act and the 
hard work and the dedication of the IG community, IGs have 
established themselves as independent voices for economy, 
efficiency, and effectiveness within the Federal Government. 
IGs are also responsible for protecting employees from 
retaliation for blowing the whistle on waste, fraud, and abuse. 
We all agree that Federal employees should be at liberty to 
report such matters without fear of losing their jobs.
    As you know, this Committee and the Congress depend on the 
integrity and frequency of your reports for assisting in our 
oversight role of the Executive Branch.
    Mr. Skinner, under your predecessor, the DHS IG office 
established a reputation for thorough and insightful analysis. 
If confirmed, I hope you will continue that practice.
    You both face significant challenges. DHS and GSA have 
programs on the Government Accountability Office high-risk 
list, which are identified as having the greatest risk of 
waste, fraud, abuse, and mismanagement. Solutions to these 
problems have the potential to save billions of dollars. Mr. 
Miller, you will have your work cut out for you, particularly 
in the areas of interagency contracting, technology 
procurement, and Federal real property management. And, Mr. 
Skinner, as you know from your present position, there are many 
challenges at DHS, including management transformation, human 
capital management, procurement, and information security, to 
name a few.
    And with that, I welcome you to this Committee. Thank you.
    Chairman Collins. Thank you, Senator.
    I would now like to recognize the distinguished Chairman of 
the Armed Services Committee and a very valuable Member of this 
Committee, Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you very much, Madam Chairman, and I 
join with you in welcoming these distinguished individuals. As 
I look back over my experience here in the Senate of quite a 
few years, this is a very important hearing because each of you 
have been carefully selected by the President, and I commend 
you for that first step. And I am confident of confirmation.
    But you will undertake a challenge unlike others in public 
service in that you want to express a loyalty to the Cabinet 
Officer, under whom you serve, and/or the head of the agency. 
And at the same time, you must, in order to fulfill your 
statutory mandate, find within yourself the courage to speak 
absolutely to the accuracy of the facts and your own opinion.
    It is not easy. The system has worked, I think, reasonably 
effectively in the years I have been here, and I was here when 
this statute was first passed, so I can speak from some modest 
observation. But it is going to be a challenge, and the 
distinguished Chairman has completely outlined the essential 
facts that are necessary for this hearing. I would ask to put 
mine into the record.
    But I would ask each of you now, particularly, Mr. Skinner, 
you are almost, I think you would say, a professional Inspector 
General. Would you kindly introduce the family that has 
accompanied you today because this is a very important hearing 
for them, too.
    Mr. Skinner. Well, thank you, Senator. I would be glad to. 
Seated right behind me is my wife, Barbara, and my youngest 
daughter, Heidi, right here.
    Senator Warner. We welcome you.
    Mr. Skinner. My oldest daughter, Tasha, lives and works in 
San Francisco, and was unable to make the trip today to be 
here. But I would like to say, if I may, they have been and are 
my bedrock, and just for the record I would like to express my 
sincere thanks to them for their sustained support of me over 
the years as I pursued my Federal career.
    Senator Warner. Well, this Committee welcomes that 
representation, and we thank you very much.
    Now, Mr. Miller, your family?
    Mr. Miller. Thank you, Senator. Behind me is my daughter, 
Rosemary.
    Senator Warner. Rosemary, we welcome you.
    Mr. Miller. My wife, Mary Frances, and my son, Andrew.
    Senator Warner. Andrew, nice to see you.
    Mr. Miller. And, I, too, thank my family for their 
sacrifice. Often public service can be hard on a family, and I 
would like to thank them for their sacrifice and their support.
    Senator Warner. Well, each of you is going to be entrusted 
with one of the more complicated portfolios of decisions 
because homeland security is rapidly expanding, if I may say 
under the distinguished oversight of this distinguished 
Chairman and Ranking Member of this Committee, and others on 
the Committee. And your agency has been around a long time. I 
see that from the perspective of this Committee on which I 
serve and also the Environment and Public Works Committee. And 
I have had a long affiliation with your agency, and I wish you 
well because it, too, has had a record of some problems in the 
past and my very best good luck to you as you address the 
complicated matrix of decisions that will come before you.
    With that, Madam Chairman, I yield the floor to my 
distinguished colleague, if I may.
    [The prepared statement of Senator Warner follows:]

                  PREPARED STATEMENT OF SENATOR WARNER

    Chairman Collins, Senator Lieberman, and my other distinguished 
colleagues on the Senate's Homeland Security and Governmental Affairs 
Committee, I thank you for holding this confirmation hearing.
    Today, I am pleased to introduce to you, Mr. Skinner, who has been 
nominated to serve as the Inspector General of the Department of 
Homeland Security. Mr. Skinner is supported here today by his wife 
Barbara and his youngest daughter Heidi.
    Subsequent to earning his B.S. degree in business administration 
from Fairmont State College in 1968, Mr. Skinner has served as a 
dedicated public servant for over 35 years. Mr. Skinner began his 
Federal career in the Office of Inspector General at the U.S. 
Department of Agriculture (USDA) as an auditor.
    Since working at USDA, Mr. Skinner has worked in five other Federal 
agencies' Offices of Inspector General. Most recently, he has served as 
the Acting Inspector General of Homeland Security.
    Having worked exclusively within the Inspector General community, 
Mr. Skinner has had the opportunity to rise through the ranks in a 
variety of management and executive positions. Consequently, he has 
participated in and directed all operational functions associated with 
an Office of Inspector General.
    Madam Chairwoman, obviously, Mr. Skinner is highly qualified to 
serve as Inspector General of the Department of Homeland Security. I 
urge my colleagues to support his nomination, and I look forward to the 
Committee reporting out his nomination favorably.
    Also, today, I am pleased to introduce to you, Mr. Miller, who has 
been nominated to serve as the Inspector General of the General 
Services Administration. Mr. Miller is supported here today by his wife 
Mary Frances, his son Andrew, and his daughter Rosemary.
    The job of Inspector General is a critical one, tasked with the 
responsibility of detecting and deterring waste, fraud, and abuse 
within the agency. Mr. Miller has a strong legal background and 
extensive work experience in the Federal Government, which makes him 
highly qualified to serve in this position.
    Subsequent to earning his B.A. at Temple University and J.D. at the 
University of Texas, Mr. Miller has served as a public servant for 
nearly two decades. For over a decade now, Mr. Miller has served as an 
Assistant U.S. Attorney in a diverse number of roles and has handled 
many cases. In one such role, he assisted in some of the most important 
terrorism cases the Federal Government has pursued since the September 
11 attacks, including United States v. Moussaoui.
    In addition, Mr. Miller served as the Special Counsel on Health 
Care Fraud. In that position, Mr. Miller was charged with overseeing 
the U.S. Department of Justice's health care fraud litigation, 
prosecution, and policy development within the Department.
    Madam Chairman, obviously, Mr. Miller is highly qualified to serve 
as Inspector General of the General Services Administration. I urge my 
colleagues to support his nomination, and I look forward to the 
Committee reporting out his nomination favorably.

    Chairman Collins. Thank you. Senator Allen, we are 
delighted to have you with us today to introduce the nominee.

 STATEMENT OF HON. GEORGE ALLEN, A U.S. SENATOR FROM THE STATE 
                          OF VIRGINIA

    Senator Allen. Thank you, Madam Chairman, Senator Akaka, 
and my good colleague, Senator Warner. Thank you all for 
allowing me to have this opportunity to present to you Mr. 
Miller, who the President has nominated to be Inspector General 
of the General Services Administration.
    I consider Mr. Miller to be a trusted friend. His family 
has been introduced here, they are proud residents of 
Fredericksburg, Virginia. I heard you all talking about 
economy, value, and efficiency. I asked his son, Andrew, what 
were the gas prices at the Wawa Station in Fredericksburg; he 
knew it was $2.19. As my colleague Senator Warner knows, I look 
for efficiency, value, and economy in fuel prices, and so that 
is a good sign that young Andrew here doesn't want to squander 
money on paying unnecessarily high prices for gasoline.
    At any rate, I, Madam Chairman and Members of the 
Committee, highly recommend Mr. Miller for confirmation as an 
Inspector General for the General Services Administration. For 
nearly 20 years, Mr. Miller has dedicated his professional life 
to public service. Whether as a leader in the community in 
Fredericksburg, Alexandria, or in Washington, DC, he has worked 
closely with some of the most effective leaders of our time. 
Mr. Miller has provided wise counsel to FBI Director, Robert 
Mueller, when he was Acting Deputy Attorney General. He also 
gave counsel to Deputy Attorney General Larry Thompson and our 
outstanding U.S. Attorney for the Eastern District of Virginia 
presently, Paul McNulty.
    Mr. Miller's skills are well respected and have been 
utilized in a variety of different ways by different agencies 
and prosecutions. In fact, even when there was a prosecution in 
the Southern District of West Virginia that was in jeopardy 
because of misconduct by the lead investigator, the Department 
of Justice asked Mr. Miller to go down there to investigate the 
investigation, to make sure that moved forward.
    Now, as Inspector General, Mr. Miller is going to be 
charged with the very important responsibility of preventing 
waste, fraud, and abuse in an agency that, as you stated, has 
one of the largest, if not the largest procurement budgets in 
our whole government. It is a task that Mr. Miller is well 
suited for. He has been a principal architect for U.S. Attorney 
Paul McNulty's Federal Procurement Fraud Initiative. Mr. 
Miller, therefore, is no stranger to this sort of prevention 
and prosecution of procurement fraud. He has over 12 years of 
experience as an assistant U.S. Attorney, and has handled 
numerous procurement, health care, and grant fraud cases. He 
has the legal courtroom experience to not just investigate, but 
also prosecute, which I think will give his scrutiny and 
eyeballing of what is going on added credibility, and hopefully 
giving those who would be making these decisions the 
understanding that there is someone watching who understands 
what is going on.
    And so, I believe for us in Congress, Mr. Miller is the 
type of person we would want as we all care so much, regardless 
of party, we don't want our taxpayers' dollars being wasted or 
squandered or being misused, and Mr. Miller will be our eyes 
and ears, not just ours, but also the taxpayers.
    So I thank you Madam Chairman and Members of the Committee 
for the courtesy provided to me here. I hope you will move 
swiftly on Mr. Miller's nomination. I strongly endorse his 
nomination and look forward to working for his confirmation on 
the Senate floor. I thank you, all.
    Chairman Collins. Thank you very much, Senator.
    Your strong endorsement carries great weight with this 
Committee, and we look forward to working with you.
    I am aware that you have other scheduled appointments this 
afternoon, and so we are pleased to excuse you at this time.
    Senator Warner. Madam Chairman, he made reference to the 
young Mr. Miller about the price of gas. [Laughter.]
    I remember the night very well. The two of us had been on a 
long trip, as most Senators, traveling in a small plane, 
bouncing through the skies, finally arriving back at around 11 
o'clock, having called our respective wives to join each other 
and have a drink who had been waiting 2 hours late for us.
    We then get into his beat up old SUV, and he finds it has 
no gas in it. So now the problem is at this hour of the night 
trying to find a gas station. And the first one was closed. The 
second--when we started pumping, he would only have 90-cent 
regular. That was all he was going to pay.
    So they had five gallons. So we pumped that. We went to the 
next gas station, and the fellow was all out of regular, but he 
had some high test. And George said no, I am moving on. I said, 
George, I am buying all the high test this guy has or I will 
buy the gas station and give it to you. [Laughter.]
    We finally got home. [Laughter.]
    Chairman Collins. Well, I would have you know, Mr. 
Chairman, that when I heard the price of gas in Virginia, I was 
envious, since it was 15 cents lower than that in the State of 
Maine this past weekend.
    Senator Warner. I am out of here.
    Chairman Collins. So thank you, Senator.
    Senator Allen. Bring Senator Warner with you. He will pay 
for that high test.
    Chairman Collins. Yes. [Laughter.]
    And that was just regular.
    Senator Allen. Thank you.
    Chairman Collins. I want to thank both of the Senators from 
Virginia for being here in support of the nominees. Both 
nominees have filed responses to biographical and financial 
questionnaires, answered pre-hearing questions submitted by the 
Committee, and had their financial statements reviewed by the 
Office of Government Ethics. Without objection, this 
information will be made part of the hearing record, with the 
exception of the financial data, which are on file and 
available for public inspection in the Committee offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. So I would 
ask that you both stand at this time and raise your right hand.
    [Witnesses sworn.]
    Chairman Collins. You may be seated.
    Mr. Skinner, I would ask that you proceed first with your 
statement.

 TESTIMONY OF RICHARD L. SKINNER,\1\ TO BE INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Skinner. Thank you, Chairman Collins.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Skinner appears in the Appendix 
on page 17.
     The biographical information and questionnaire appears in the 
Appendix on page 21.
     The pre-hearing questionnaire appears in the Appendix on page 25.
     The post-hearing questions appears in the Appendix on page 63.
---------------------------------------------------------------------------
    Senator Akaka, I would like to thank you for having this 
hearing today on my nomination, and I'd also like to thank 
Senator Warner for taking time out of his busy schedule to be 
here today as well.
    Again, I express my sincere thanks to President Bush for 
the confidence that he has shown by nominating me for such a 
high Federal position.
    The importance of the Department's mission cannot be 
overstated. And by conducting independent and objective audits, 
investigations, and inspections, the Inspector General can play 
a very critical or very important role in aiding the Department 
to accomplish its mission.
    Since their arrival in the Department several months ago, 
I've had the opportunity to meet with Secretary Chertoff and 
Deputy Secretary Jackson on several occasions. They both 
underscored their appreciation of the Inspector General's 
oversight role and dual reporting responsibilities. I thank 
them for their support.
    Based upon my experience today, I am confident that, if 
confirmed, I will have a very close working relationship with 
them both.
    Furthermore, since March 2003, I've had the privilege to 
serve with some of the most dedicated employees in the Federal 
Government. I cannot begin to tell you how rewarding it has 
been over the past 28 plus months to work side by side with the 
men and women employed within both the Department and the OIG.
    I would like to take a moment now to provide you a brief 
summary of my work experience and what I would bring to the 
Inspector General job, if confirmed.
    I feel as though I've been training for this job for the 
past 36 plus years. I spent my entire Federal career in 
Inspector General organizations dedicated solely to the 
implementation of the principles specified in the Inspector 
General Act. My background has afforded me the opportunity to 
be involved in all operational functions associated with an 
Office of Inspector General. I believe this experience has 
prepared me to perform the duties of an Inspector General with 
confidence and integrity.
    If confirmed, I would bring that experience, knowledge, 
dedication, and independence to the job as the Inspector 
General of the Department of Homeland Security.
    There are several lessons I've learned over the years. One 
is the importance of teamwork. Notwithstanding the independent 
role of the OIG, the Inspector General must work to build 
relationships within the Department and the Congress, 
relationships that are based on trust and mutual respect, and a 
shared commitment to improving the Department's operations and 
programs.
    If confirmed, I pledge to keep both the Secretary and the 
Congress currently informed and to promote the open exchange of 
information and ideas.
    Second, it is imperative that the Inspector General has the 
flexibility to respond to unanticipated requirements or 
conditions and to do so in a timely manner.
    If confirmed, I would stand ready to initiate special 
reviews responsive to the needs of the Secretary and the 
Congress on short notice.
    The third and possibly most important lesson is never to 
rest on your laurels. The Inspector General must continually 
strive to do better, to anticipate ways in which operations can 
be improved, both within the Department and within the OIG 
itself.
    If confirmed, I would very much look forward to working 
closely and routinely with this Committee, as well as the many 
other congressional committees with homeland security oversight 
responsibilities, and I pledge to carry out my responsibilities 
as Inspector General to the very best of my ability, with 
enthusiasm and dedication, and in an objective, independent, 
and apolitical manner.
    Madam Chairman, that concludes my statement. I'd be pleased 
to answer any questions.
    Chairman Collins. Thank you. Mr. Miller.

   TESTIMONY OF BRIAN D. MILLER\1\, TO BE INSPECTOR GENERAL, 
                    SERVICES ADMINISTRATION

    Mr. Miller. Chairman Collins, Senator Akaka, and Members of 
the Committee, thank you for the opportunity to appear before 
you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Miller appears in the Appendix on 
page 71.
     The biographical information and questionnaire appears in the 
Appendix on page 73.
     The pre-hearing questionnaire of appears in the Appendix on page 
78.
     The post-hearing questions appears in the Appendix on page 97.
---------------------------------------------------------------------------
    I've also submitted a written statement that I would ask be 
included in the record.
    Chairman Collins. Without objection.
    Mr. Miller. Thank you. It is an extraordinary honor and 
privilege to be the President's nominee to serve as the 
Inspector General of the General Services Administration.
    I'd also like to thank Senators Warner and Allen from my 
home state of Virginia for their kind introduction. I really 
appreciate their support throughout this nomination process.
    I'd also like to thank the members of my family, again, and 
I'm also encouraged by so many of my friends and colleagues who 
have come here to this hearing.
    If confirmed, I welcome the challenges of this position at 
this historic time, and I will work hard every day to carry out 
my responsibilities. I also look forward to working with you 
and the other Senators and Members of Congress to achieve our 
mutual goals for the operations of the General Services 
Administration.
    Chairman Collins, thank you for allowing me to testify here 
this afternoon. I would be happy to answer any questions that 
you or other Members of the Committee may have. Thank you.
    Chairman Collins. Thank you very much. I will start my 
questioning with standard questions that we ask of all nominees 
who come before this Committee.
    First, is there anything that you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated? Mr. 
Skinner.
    Mr. Skinner. No, Madam Chairman.
    Chairman Collins. Mr. Miller.
    Mr. Miller. No, Madam Chairman.
    Chairman Collins. Two, do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated? Mr. Skinner.
    Mr. Skinner. No.
    Chairman Collins. Mr. Miller.
    Mr. Miller. No.
    Chairman Collins. And finally, on this segment, do you 
agree without reservation to respond to any reasonable summons 
to appear and testify before any duly constituted Committee of 
Congress if you are confirmed? Mr. Skinner.
    Mr. Skinner. Absolutely.
    Chairman Collins. Mr. Miller.
    Mr. Miller. I will.
    Chairman Collins. Well, you both passed that section very 
well.
    I will now do a round of questions limited to 8 minutes 
each.
    Mr. Miller, I have long been concerned about whether the 
Federal Government is doing enough to protect the integrity of 
the procurement process. One essential area is determining 
whether or not government contractors are responsible under the 
law as the Federal Acquisition Regulations require.
    For some time, I have questioned whether GSA has done 
everything that it could in the area of debarring or suspending 
contractors who fail to meet ethical standards or in some cases 
may have been convicted of a crime. This Committee pursued at 
great length the WorldCom situation, where GSA was very slow to 
make a responsibility determination to determine whether this 
major telecommunications contractor should continue to do 
business with the Federal Government. I wasn't prejudging the 
outcome of that process, but I was concerned that but for this 
Committee's prompting GSA to begin its analysis and review it 
might never have reached a determination.
    Similarly, this Committee's Permanent Subcommittee on 
Investigations has held hearings over the past 2 years that 
have revealed that numerous Federal contractors have 
deliberately failed to pay taxes that they owe, payroll taxes, 
for example. One problem is that the Federal contracting 
officials often delay in taking action against the contractor 
until an investigative agency brings charges against them or 
even in some cases until a conviction is secured.
    Do you see any opportunity for the GSA IG to take a more 
active role in probing Federal contractors, since GSA is the 
largest procurement agency and maintains the debarment and 
suspension list upon which other agencies rely?
    Mr. Miller. Thank you for the question, Chairman Collins. I 
share your concern regarding contractors who have defrauded the 
Federal Government or have not paid taxes, and I, too, would 
like to see them debarred. And that is an issue that when I did 
meet with the former Inspector General, Dan Levinson, I brought 
that up with him, and we had a discussion about debarment 
practices and bringing action against those individuals.
    In fact, we talked about WorldCom. So I share your concern. 
If confirmed, I would do everything in my power to pursue 
debarment and administrative remedies against contractors who 
are engaged in defrauding the government or misusing government 
funds, and I would like to see our office move in a direction 
where it is much easier for contracting officers to recognize 
the potential for debarment proceedings earlier on in the 
investigation or if they see an irregularity. I would strive to 
work closer with contracting officers so that we can move more 
quickly against Federal contractors who are engaged in fraud or 
abuse of the contract.
    So I would do all in my power, if confirmed.
    Chairman Collins. Thank you. Mr. Skinner, you made a very 
important point in your opening statement when you talked about 
the necessity for the IG not only to be the independent 
watchdog, but to build relationships with managers in the 
Department so that you can help them avoid problems that 
improve the effectiveness and efficiency of the delivery of 
Federal programs.
    In that regard, could you tell us whether you had any role 
in the second stage review recently undertaken by the Secretary 
of Homeland Security, which has led to significant 
reorganization proposals for the Department?
    Mr. Skinner. Madam Chairman, we were involved in this since 
March 2003. We've had the opportunity to issue several reports 
in which we questioned organizational structure and as well as 
delivery of different services within the Department. What we 
did, working with the Deputy Secretary, is to analyze all of 
our recommendations and all of our outstanding recommendations 
and to overlay those with the recommendations that were coming 
in from the other 17 working groups--I believe there were 18 
working groups under the 2SR--to see if there were any 
contradictions or if there was anything that the Secretary 
could use from an Inspector General report to support any 
recommendations he may have. If there were differences, then 
the Secretary was at least made aware of what those differences 
are. That way, he can make an informed decision on which way he 
would choose to go.
    So in that sense, we were.
    Also, we participated in the law enforcement working group. 
That was one of the 18 working groups. We provided input to 
that group relative to the internal affairs operations that are 
scattered throughout the Department and the different bureaus 
and directorates and how those interact with the OIG.
    Chairman Collins. I am glad to hear that, and the Secretary 
also told me that he had sought you out for your advice, which 
I think is so important. The Secretary ought to view the 
Inspector General as an ally, not an adversary, but that is not 
always the case.
    At a January hearing before this Committee, Mr. Skinner, 
you kindly agreed to my request to conduct a review of whether 
it made sense to merge two agencies in the Department, the CBP 
and ICE.
    As part of his second stage review, Secretary Chertoff 
proposes to actually move the two agencies out from under the 
control of a common directorate. I have told the Secretary that 
this concerns me because it further separates them potentially. 
He also told me, however, that he has not ruled out if some 
management reforms he puts into place are not effective 
eventually taking another look at combining the two agencies. 
We have had experts recommend the merger of CBP and ICE to us. 
It is not something that I have reached a decision on, but it 
is something I am interested in hearing views on.
    Could you tell us where you are in the review process and 
whether you have reached any preliminary conclusions?
    Mr. Skinner. Chairman Collins, I'm pleased to report that 
if not today, tomorrow morning I will be signing a draft 
report.
    It's been an arduous journey in doing a task like this. We 
have interviewed somewhere between 400 to 500 individuals 
across the country, in all parts of the BTS, Bureau of 
Transportation and Security, as well as those that the 
Department services, interacts with, and that would be U.S. 
Attorneys Offices, State, and local governments.
    We have just over the weekend started pulling together all 
of our conclusions. I have not seen the final draft. We keep 
making adjustments to it. But I hope to have that signed 
tomorrow, obtain comments from the Secretary himself, and have 
a report up to you very shortly, hopefully within the next 30 
days.
    Chairman Collins. Excellent. Thank you. Senator Akaka.
    Senator Akaka. Thank you, Madam Chairman.
    Mr. Skinner, as I noted in my opening statement, I take the 
issue of whistleblower protection very seriously. Good 
government demands protection of employees who report waste, 
fraud, and abuse.
    Federal Inspectors General are key partners in 
investigating whistleblower reprisal allegations. The number of 
referrals of reprisal allegations from the Office of Special 
Counsel to IGs is increasing.
    Some OIGs have dedicated training units to handle such 
cases, such as the Defense Department OIG, which has two 
separate directorates for reprisal investigations, one for 
military and one for civilian employees.
    My questions are how does DHS OIG currently handle reprisal 
investigations? And, in light of increases in referrals, how 
will your office act to ensure that whistleblower reprisal 
investigations are investigated properly?
    Mr. Skinner. Senator Akaka, I share your concerns with 
regard to the protections offered under the Whistleblower 
Protection Act.
    In order to be successful, the Whistleblower Protection Act 
is something that we rely on very heavily. People have to be 
secure in the knowledge that they can come to the OIG without 
fear of reprisal. We work very closely with the Office of 
Special Counsel when we receive allegations under the 
Whistleblower Protection Act.
    First of all, anytime we do get such an allegation, we 
counsel those individuals on how far we can go with those 
investigations. We contact the Office of Special Counsel to 
seek their advice, their input as to how we should proceed with 
these issues. If it's something that we can't handle or an 
investigation that we can't pursue; that is, we would have to 
share the identity of the allegator, then we would refer that 
individual to Office of Special Counsel for further 
investigation.
    More often than not, those cases are referred back to us. 
We have, in the past 2 years or in 2004, set up an Office of 
Special Investigations within headquarters here in Washington 
that handles all allegations that involve whistleblower 
allegations. They pursue any of these special type cases where 
people feel like they have been reprised against as a result of 
coming to the OIG, or for that matter to OSC or to management 
itself.
    It is something we do take very seriously. Our success 
depends on the ability of these people to come forward and be 
truthful and forthright.
    Senator Akaka. Thank you for your response. Mr. Miller, 
would you care to comment on the role of the GSA Inspector 
General in protecting whistleblowers and explain your view of 
the responsibilities of the OIG and the Office of Special 
Counsel in handling whistleblower retaliation cases?
    Mr. Miller. OK. Thank you, Senator. I, too, share your 
concern about whistleblowers. Whistleblowers are a very 
important part of oversight of government operations. When I 
was Special Counsel on Health Care Fraud for the Department of 
Justice, I learned that it was very important to get--obtain 
information from all sources, including whistleblowers. In 
fact, some of our most significant cases started with 
whistleblowers. We settled a case with TAP Pharmaceutical 
Company. It ended up paying $875 million in criminal fines and 
civil penalties and that began with a whistleblower.
    So I do recognize the importance of whistleblowers, and I 
believe they should be protected to the fullest extent 
possible, and I see the role of the OIG as very important in 
protecting them from retaliation.
    Senator Akaka. Thank you. Mr. Skinner, TSA is the only 
entity within DHS that is not required to follow the Federal 
Acquisition Regulation. As you know, the DHS OIG and the 
Government Accountability Office have audited TSA procurement 
practices, and have questioned the cost and effectiveness of 
many TSA contracts.
    Your office attributed these problems to a lack of contract 
oversight personnel, poor management by the contractors, and 
weak financial controls at the agency.
    Based on your investigations, do you believe TSA should 
still be exempt from the FAR?
    Mr. Skinner. That's an excellent question. The reports that 
we issued with regard to TSA and the problems that they're 
having with their procurement operations are somewhat dated. 
Those procurements occurred generally in 2002 and in early 
2003, keeping in mind in 2002 and early 2003, TSA only had 12 
employees and only one contracting officer. Things have changed 
considerably since then.
    Today, they have over 70, close to 80, people dedicated to 
a procurement. They have established an entire division for 
procurement operations. They have an investment review board 
now for anything that's procured over $50 million. They have a 
review process for anything over $5 million. So things have 
improved considerably since the early days of TSA in 2002 and 
2003.
    With regard to using the FAR versus the other acquisition 
mechanisms, I think it's going to require a little closer study 
on our behalf before we can offer an opinion on that. I have 
been working with our Chief Procurement Executive within the 
Department of Homeland Security to make a determination whether 
it is still needed. At the time that they were stood up in 
2002, the acquisition regulations under which they were 
operating may have been necessary because of the imminent 
requirement or the requirement to stand up so quickly, and they 
required exemptions to enable them to do that.
    Today, the dust has settled, and now we're moving at a more 
steady pace. The question is could they operate under the FAR? 
My initial reaction to that is yes, they could. But before we 
draw that conclusion categorically, we have to study to see 
what impact that would have on some of the procurements that 
are currently underway and what their future plans are.
    Senator Akaka. Chairman, I will wait for a second round.
    Chairman Collins. Thank you.
    Senator Akaka. Thank you.
    Chairman Collins. Mr. Skinner, in response to the 
Committee's written questions, you stated that at times the IG 
office has had difficulty in obtaining information from within 
the Department that it needed to conduct its investigations. 
You specifically cited significant problems involving a case of 
your review of a rendition of an individual to Syria. Are you 
satisfied that you will have the cooperation of high-ranking 
officials and the Secretary as far as getting timely access to 
all the information you need to conduct your duties?
    Mr. Skinner. Today, I'm very satisfied, Chairman Collins. 
That particular case you're referring to is a very frustrating 
process. It wasn't a matter of denial of access to records or 
individuals. There were extenuating circumstances. There was an 
outstanding civil suit. There was the question of whether the 
Department was going to waive certain privileges through the 
court proceedings.
    That had to be resolved. There was also the issue of 
classified material that was under what they call an 
organizational control classification; that is, it was 
classified by other departments, and to have access, approval 
was required.
    We had to work through that. It was the first time for 
them. It was the first time for us. We have worked through 
that. That particular case now is--we're moved very rapidly on 
that now. We have resolved all those issues. And it was a good 
lesson for us all because it taught us, a lot of people within 
the Department, what our authority really is; that is, we have 
unfettered access to individuals and records, and they 
understand that now.
    I've talked and met with Secretary Chertoff, Deputy 
Secretary Jackson, General Counsel Phil Perry, and they've all 
assured me that if we do not receive the information that we're 
asking for, to report it to them immediately, and they will see 
to it that we get it.
    Chairman Collins. I am glad to hear that. I would also 
encourage you to contact this Committee if ever you do run into 
those difficulties and let us know.
    Mr. Skinner. Rest assured, I will.
    Chairman Collins. And, Mr. Miller, I would ask the same 
commitment from you. If you run into difficulties in securing 
documents or access to individuals within GSA that you believe 
are necessary to carry out your responsibilities, I would ask 
that you notify this Committee.
    Mr. Miller. I certainly will.
    Chairman Collins. Mr. Miller, I have one final question for 
you. In January, the Government Accountability Office, GAO, 
once again placed Federal real property management on its high-
risk list. This is at least the second time that the management 
of real property has been on GAO's high-risk list. In doing so, 
GAO noted that the area was designated as high-risk due to 
``longstanding problems with excess and underutilized property, 
deteriorating facilities, unreliable real property data, and 
costly space challenges.'' GAO further stated, and this is even 
more troubling, that the underlying conditions that led to the 
high-risk designation continue, and more remains to be done to 
address these problems and the obstacles that prevent agencies 
from solving them.
    This Committee did an in-depth investigation of this very 
issue. We found countless cases of valuable Federal property 
left to deteriorate. It is a real problem, and, as the landlord 
for the Federal Government, this should be a matter of great 
concern for the General Services Administration. What role do 
you think that the IG could play in assisting GSA in getting a 
handle on its real property and ensuring that the taxpayers' 
investment is protected?
    Mr. Miller. Thank you, Chairman Collins. I, too, share your 
concern. It is imperative that GSA maintains proper management 
of Federal real property and gets the best deal for the 
taxpayers. All improper management should be remedied and 
improvements made. Our Nation's building resources should not 
remain unproductive.
    If confirmed as Inspector General, I will attempt to ensure 
that GSA makes better use of Federal property through audits, 
through investigations, and through any other means. I consider 
this a very important issue and will give it my full attention 
if confirmed as Inspector General.
    Chairman Collins. I hope that you will make this as a 
personal priority a goal of getting the Federal property 
management off the high-risk list so that we don't have exactly 
this same conversation in 2007, when the GAO's list will come 
out again.
    Mr. Miller. Yes, Senator, I'll do my best.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman. I have 
further questions I would like to submit because I was just 
informed that I have to leave to attend another meeting. So I 
thank you very much, and I thank our witnesses very much for 
their responses.
    Chairman Collins. Thank you, Senator. I am very sympathetic 
because I, too, have a BRAC meeting that is scheduled for this 
afternoon. Mine is about a half hour from now. That is probably 
good news for our next panel. But I do thank you for being here 
today.
    I want to thank both of our nominees for appearing before 
the Committee. Without objection, the record will be kept open 
until 10 a.m. tomorrow for the submission of any written 
questions, statements, or other materials for the record.
    In closing, let me just say that I feel we are very 
fortunate that both of you have been tapped for your respective 
posts. We need people like you who are willing to serve in such 
an important position, and I thank you and your families for 
your dedication to public service.
    Mr. Miller. Thank you, Senator.
    Mr. Skinner. Thank you.
    Mr. Miller. Thank you, Madam Chairman.
    Chairman Collins. We look forward to working very closely 
with you. This hearing is now adjourned.
    [Whereupon, at 2:49 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3161.001

[GRAPHIC] [TIFF OMITTED] T3161.002

[GRAPHIC] [TIFF OMITTED] T3161.005

[GRAPHIC] [TIFF OMITTED] T3161.006

[GRAPHIC] [TIFF OMITTED] T3161.007

[GRAPHIC] [TIFF OMITTED] T3161.008

[GRAPHIC] [TIFF OMITTED] T3161.009

[GRAPHIC] [TIFF OMITTED] T3161.010

[GRAPHIC] [TIFF OMITTED] T3161.011

[GRAPHIC] [TIFF OMITTED] T3161.012

[GRAPHIC] [TIFF OMITTED] T3161.013

[GRAPHIC] [TIFF OMITTED] T3161.014

[GRAPHIC] [TIFF OMITTED] T3161.015

[GRAPHIC] [TIFF OMITTED] T3161.016

[GRAPHIC] [TIFF OMITTED] T3161.017

[GRAPHIC] [TIFF OMITTED] T3161.018

[GRAPHIC] [TIFF OMITTED] T3161.019

[GRAPHIC] [TIFF OMITTED] T3161.020

[GRAPHIC] [TIFF OMITTED] T3161.021

[GRAPHIC] [TIFF OMITTED] T3161.022

[GRAPHIC] [TIFF OMITTED] T3161.023

[GRAPHIC] [TIFF OMITTED] T3161.024

[GRAPHIC] [TIFF OMITTED] T3161.025

[GRAPHIC] [TIFF OMITTED] T3161.026

[GRAPHIC] [TIFF OMITTED] T3161.027

[GRAPHIC] [TIFF OMITTED] T3161.028

[GRAPHIC] [TIFF OMITTED] T3161.029

[GRAPHIC] [TIFF OMITTED] T3161.030

[GRAPHIC] [TIFF OMITTED] T3161.031

[GRAPHIC] [TIFF OMITTED] T3161.032

[GRAPHIC] [TIFF OMITTED] T3161.033

[GRAPHIC] [TIFF OMITTED] T3161.034

[GRAPHIC] [TIFF OMITTED] T3161.035

[GRAPHIC] [TIFF OMITTED] T3161.036

[GRAPHIC] [TIFF OMITTED] T3161.037

[GRAPHIC] [TIFF OMITTED] T3161.038

[GRAPHIC] [TIFF OMITTED] T3161.039

[GRAPHIC] [TIFF OMITTED] T3161.040

[GRAPHIC] [TIFF OMITTED] T3161.041

[GRAPHIC] [TIFF OMITTED] T3161.042

[GRAPHIC] [TIFF OMITTED] T3161.043

[GRAPHIC] [TIFF OMITTED] T3161.044

[GRAPHIC] [TIFF OMITTED] T3161.045

[GRAPHIC] [TIFF OMITTED] T3161.046

[GRAPHIC] [TIFF OMITTED] T3161.047

[GRAPHIC] [TIFF OMITTED] T3161.048

[GRAPHIC] [TIFF OMITTED] T3161.073

[GRAPHIC] [TIFF OMITTED] T3161.074

[GRAPHIC] [TIFF OMITTED] T3161.075

[GRAPHIC] [TIFF OMITTED] T3161.076

[GRAPHIC] [TIFF OMITTED] T3161.077

[GRAPHIC] [TIFF OMITTED] T3161.078

[GRAPHIC] [TIFF OMITTED] T3161.079

[GRAPHIC] [TIFF OMITTED] T3161.080

[GRAPHIC] [TIFF OMITTED] T3161.003

[GRAPHIC] [TIFF OMITTED] T3161.004

[GRAPHIC] [TIFF OMITTED] T3161.049

[GRAPHIC] [TIFF OMITTED] T3161.050

[GRAPHIC] [TIFF OMITTED] T3161.051

[GRAPHIC] [TIFF OMITTED] T3161.052

[GRAPHIC] [TIFF OMITTED] T3161.053

[GRAPHIC] [TIFF OMITTED] T3161.054

[GRAPHIC] [TIFF OMITTED] T3161.055

[GRAPHIC] [TIFF OMITTED] T3161.056

[GRAPHIC] [TIFF OMITTED] T3161.057

[GRAPHIC] [TIFF OMITTED] T3161.058

[GRAPHIC] [TIFF OMITTED] T3161.059

[GRAPHIC] [TIFF OMITTED] T3161.060

[GRAPHIC] [TIFF OMITTED] T3161.061

[GRAPHIC] [TIFF OMITTED] T3161.062

[GRAPHIC] [TIFF OMITTED] T3161.063

[GRAPHIC] [TIFF OMITTED] T3161.064

[GRAPHIC] [TIFF OMITTED] T3161.065

[GRAPHIC] [TIFF OMITTED] T3161.066

[GRAPHIC] [TIFF OMITTED] T3161.067

[GRAPHIC] [TIFF OMITTED] T3161.068

[GRAPHIC] [TIFF OMITTED] T3161.069

[GRAPHIC] [TIFF OMITTED] T3161.070

[GRAPHIC] [TIFF OMITTED] T3161.071

[GRAPHIC] [TIFF OMITTED] T3161.072

[GRAPHIC] [TIFF OMITTED] T3161.081

[GRAPHIC] [TIFF OMITTED] T3161.082

[GRAPHIC] [TIFF OMITTED] T3161.083

                                 <all>

</pre></body></html>
